                                                          UNITED STATES DEPARTM ENT OF COMMERCE
                                                          Office of Inspector General
                                                          Washingtan. D.C. 20230




September 9, 2013

MEMORANDUM FOR:               Ellen Herbst
                              Chief Financial Officer and Assistant Secretary for Administration


FROM:                         Ann C. Eilers
                              Principal
                                             t
                                       Assis~spector
                                               /JU<      t G t_{
                                                           General for Audit and Evaluation

SUBJECT:                     Nonfederal Audit Results for the 6-Month Period Ending
                             June 30, 2013

This memorandum provides an analysis of nonfederal audit reports, including a summary of
findings that OIG reviewed during the 6-month period ending June 30, 2013, for entities
receiving federal awards subject to audit requirements. Section I discusses audit reports
submitted for states, local governments, tribes, colleges and universities, and nonprofit
organizations. Section 2 discusses reports submitted for commercial organizations.

Section I: Analysis of Audits Submitted for States, Local Governments, Tribes,
Colleges and Universities, and Nonprofit Organizations

Nonfederal entities (i.e., states, local governments, tribes, co ll eges and universities, and
nonprofit organizations) that expend $500,000 or more in federal awards in a year are required
by the Single Audit Act of 1984, and Amendments of 1996, to have an annual audit of their
federal awards in accordance with OMB Circular A-133, "Audits of States, Local Governments,
and Non-Profit Organizations. " The purpose of the Single Audit Act is to set forth standards
for obtaining consistency and uniformity among federal agencies with the audit of nonfederal
entities expending federal awards. The audit required by the Single Audit Act includes a review
of the entities' financial statements and Schedule of Expenditures of Federal Awards (SEFA).
The auditor determines whether the statements are presented fairly; tests internal controls;
and determines compliance with laws, regulations, and the provisions of the contracts or grant
agreements that may have a direct and material effect on each major program.

All auditees e lectronically submit to the Federal Audit Clearinghouse a data collection form (a
summary of audit results) and a copy of the reporting package, which consists of
    • 	 financial statements,
    • 	 a schedule of expenditures of federal awards,
    • 	 a summary schedule of prior audit findings,
    • 	 auditor's reports of compliance and opinion on the financial statements, and
    • 	 a corrective action plan.

Federal awarding bureau responsibilities in connection with the Single Audit Act include
    • 	 identifying federal awards,
    • 	 advising recipients of requirements imposed on them by federal laws, regulations, and
        the provisions of contracts or grant agreements,
    • 	 ensuring audit completion and report receipt,
    • 	 providing technical advice to auditees and auditors, and
    • 	 issuing a management decision on audit findings within 6 months after receipt of the
        audit report-and ensuring that the recipient takes appropriate and timely corrective
        action. 1

OIG is responsible for reviewing the submitted audit report and auditee responses and
determining whether the recommendations can be implemented. In instances with
nonresolution findings, we notify the responsible bureau of the finding(s) and emphasize the
importance of resolution of the findings(s) before the next audit; however, a formal response in
accordance with Department Administrative Order (DAO) 213-5, "Audit Resolutions and
Follow-Up," is not required. In instances with material findings, DAO 213-5 requires a formal
response. OIG notifies the auditee and the responsible bureau of the finding(s). We work with
the bureaus to ensure they prepare written determinations, specifying concurrence or
nonconcurrence with each recommendation. The written determination presents a specific plan
of corrective action, with appropriate target dates for implementing all accepted
recommendations. OIG conducts this review on an ongoing basis and intends to present
summary analyses semiannually.

OIG reviewed each report for compliance with the reporting requirements of OMB Circular A­
133 (but did not review the quality of the underlying audits) and analyzed the results. Table I
summarizes our observations.




1
See Office of Management and Budget (OMB) Circular A-133, § _.400 (c).


                                                    2

                                        Table I. 

      Analysis by Bure au for OIG-Reviewed Single Audit Re po rts, January-June 2013 


                                        Percentage
                            Reports                                    Non-        Cross-
                Reports                 of Reports     Material                                Total       Questioned
    Bureau                    with                                  resolution     Cutting
               Reviewed                    with        Findingsa                              Findings       Costsd
                            Findings                                 Findingsb    Findings'
                                         Findings

EDAc              39           32           82            16           58            11          85          $143,903
NOAA               11           7           64            11           27            38          76           407,545
NTIA               12           7           58            15           22            14          51           916,537
NIST               6            5           83            2             6            21          29            72,506
ITA                 I           I           100           0             0             2           2                 0
Multiplef         37           31           84            0             7            11          18                 0
Total             106          83           78            44           120           97         261       $1,540,491
Source: O IG
• Material findings are those with questioned costs greater than or equal to $ 10,000 and/or significant nonfinancial 

findings. 

b   Nonresolution findings are those with questioned costs less than $ I 0,000 or administrative fi ndi ngs. 

c Cross-cutting  findings may affect mo re than o ne program-they are procedural or internal control findings that are 

disclosed o n the noncognizant audit repo rts. 

d Questioned costs are subject to change during the audit reso lution/appeal process. 


• EDA also had $5,665,323 in funds to be put to better use, w hich is subject to change du ri ng the audit 

resolution/appeal process. 

f Multiple indicates that the single audit report included programs from more than o ne Departmental bureau. 



As shown in table I ,

       • 	 78 percent of all reports review ed contained at least one finding;

       • 	 EDA, NOAA, NTIA, and N IST administered grants whose grantees had mater ial
           findings;

       • 	 Each of four Department bureaus had between 6 and 58 non resolution findings (less
           significant procedural or internal control findings, usually affecting a specific program,
           whose resolution OIG does not monitor);

       • 	 Each of five D epartment bureaus had between 2 and 38 cross-cutting findings (less
           significant procedural or internal control findings, usually affecting more than one
           Departmental program, whose resolution OIG does not monitor);

       • 	 Approx imately $1 .5 million of questioned costs were identified for all Departmental
           programs; and

       • 	 $5.7 million of funds to be put to better use were identified for EDA

Table 2 provides a summary analysis of reports reviewed, including the number of reports with
findings (material, nonresolution, and cross-cutting), with an emphasis on the number of
material findings by D epartmental program.




                                                            3
                                           Table 2. 

        Material Findings in OIG-Reviewed Single A udit Reports, January-June 2013, 

          by Departmental Program, Identified by Catalog of Federal Domestic 

                                A ssistance (CFDA) Number 


                                                         Number of      i
                                                                        !   Number           Percentage
                                                           Awards
                                                                        I of Awards          of Awards    Material
Bureau             Program                  CFDA         Included on    i
                                                                        I     with              with      Findings
                                                           Reports      I
                                                                                              Findingsa
                                                                        I   Findings 3
                                        I                 Reviewed•     I                I
           Revolving Loan Fund (RLF)
EDA                                         11 .307         46                 21              46            16
           Program
           Coastal Zone Management
NOAA                                        11.4 19         32                 11              34             I
           Administration Awards
           Pacific Fisheries Data
NOAA                                        11 .437          4                  I              25             I
           Program
NOAA       Unallied Industry Projects       11.452          12                  I               8             I
           Special Oceanic and
NOAA                                        11 .460         11                  4              36             3
           Atmospheric Projects
NOAA       Habitat Conservation             11.463          45                 19              42             5
           Broadband Techno logy
NTIA       Opportunities Program            11 .557         33                 19              58            15
           (BTOP)
           Measurement and
NIST       Engineering Research and         11 .609         so                 16              32             2
           Standards (MERS)
Source: OIG
• An e ntity r eport may have more t han o ne award per CFDA program listed on the SEFA. Table 2 counts each
CFDA award line on the report SEFA. C o unts may be larger than in table I because a re po rt may have multiple
awards fo r the same CFDA number.

As shown in table 2, the bureau programs with the most material findings were the EDA
Revolving Loan Fund, w ith 16, and t he NTIA Broadband Technology Opportunities Program
(BT OP), with 15. T he program with the highest percentage of reports with material,
nonresolution, and/or cross-cutting findings was NTIA BTOP with 58 percent.

T he most common finding types across all Departmental programs included noncompliance
w ith
    •     cost principles pertai ning to allowable costs,
    •     reporting requirements (either deficient or late reports),
    •     preparation of appropriate financial statements,
    •     cash management requirements, and
    •     internal control policies concerning segregation of duties.




                                                        4
In addition, there were two noteworthy findings related to the "Special Tests and Provisions"
associated with the EDA RLF program's eight awards.
    • 	 noncompliance with RLF capital utilization rates2 requirement and
    • 	 bank turndown letters, demonstrating that credit is not otherwise available, could not
        be located.

Section 2: Analysis of Audits Submitted for Commercial Organizations

Commercial organizations that receive federal funds from the Department are subject to award
requirements as stipulated in the award document. 3 The Department of Commerce Financial
Assistance Standard Terms and Conditions (March 2008) provide guidance that, unless otherwise
specified in the terms and conditions of the award, an audit shall be performed when the
federal share amount awarded is $500,000 or more over the duration of the project period.
Additionally, it provides that an audit is required at least once every 2 years depending on the
length of the award and the terms and conditions of the award. Some Departmental programs
have specific audit guidelines that are incorporated into the award. When the Department does
not have a program-specific audit guide available for the program, the auditor will follow the
requirements for a program-specific audit as described in OMB Circular A-133, section 235.

The responsibilities of federal awarding bureaus in connection with for-profit audits, per the
Department of Commerce Grants and Cooperative Agreements Manual, include
    • 	 providing grants administration and programmatic guidance and support to recipients
        and
    • 	 reviewing the audit report and the recipient's response and preparing the audit 

        resolution proposal in accordance with DAO 213-5. 

OIG responsibility for the review of for-profit audits is the same as for single audits (see section
I). During the current review period, our analysis of audits submitted for commercial and other
organizations included the NIST Advanced Technology Program (ATP) awards, the NIST
Technology Innovation Program (TIP) awards, NIST Measurement and Engineering Research
Standards awards (MERS), and NTIA BTOP awards.

ATP, TIP, and MERS awards range from I to 5 years, with audits due after the first, third, and
fifth years. ATP-which awarded funds from 1990 through 2004 and then in 2007-was
replaced by TIP, which awarded funds from 2009 through 20 I I. The last group of audit report
submissions is due in 2013 for ATP and in 2015 for TIP. MERS has made various awards since
 1995 and continues to be an active award program.



2
  EDA generally requires recipients to have at least 75 percent of the RLF's capital base loaned or committed at
any given time. Five of the eight RLFs had not met this requirement. In three instances, it was recommended the
RLF be terminated and funds put to better use and returned. In one instance, additional funds were sequestered. In
addition, one recipient did not make computations to track compliance with the requirement. These findings
resulted in recommendations of $5.7 million funds to be put to better use.
3
  15 CFR § 14.26(c) and (d).


                                                        5
STOP awards span 3 years, with audits due after the first and third years. NTIA awarded STOP
grants in 20 I0, and all first-year audits submitted have been reviewed. Third-year audits are due
starting in 2013.

For commercial audits, both the grants officer and OIG receive a copy of the program-specific
audit reporting package, prepared in accordance with program guidelines (see table 3).




                                                6
                                       Table 3. 

         Audit Guidance, Threshold, and Requirements for Reporting Packages 

                    for CommerciaJ Audit Submissions Reviewed 


                                                NTIA                                      NIST                NIST
                                                                NIST ATP '
                                                BTOP                                       TIP                MERS
                                                                                 I



CFDA number                                      11 .557           11.61 2                 I 1.616            11 .609

                                                                                                            Government
                                                                                        Government
                                                                  Program-                                    Auditing
                                                                                     Auditing Standards
                                                Program-        specific audit                             Standards and
                                                                                       and program-
                                              specific audit    guidelines for                               program-
Audit guidance                                                                         specific audit
                                              guidelines for        ATP                                    specific audit
                                                                                      guidelines from
                                                  BTOP           coo perative                             guidelines from
                                                                                     OMB Circular A­
                                                                 agreements                                OMB Circular
                                                                                       133, §_.235
                                                                                                          A- 133 § _.235
                                                                                                               Award
Audit threshold                                >$ 100,000        All awards             All awards           Amounts
                                                                                                            ~ $ 500, 000

Required components of audit reporting package
     Schedule of funds' sources and                 ./                ./                     ./                 ./
     project costs
     Independent auditor's report"                  ./                ./                     ./                 ./
     Internal control and                           ./                ./                     ./                 ./
     compliance report
     Schedule of findings and                       ./                ./                     ./                 ./
     questioned costs
     Schedule of prior audit find ings              ./                ./                     ./                 ./
     Corrective action plan                         ./                ./                     ./                 ./
                                              Not a pplicable
     Management assertions                                            ./                    N/A                N/A
                                                   (n/a)
                                               If available
     Audited financia l statements             (audit no t          N/A                    N/A                 N/A
                                                required)
Source: OIG, from program-specific audit guidelines for BTOP and ATP cooperative agreements, as well as
Government Auditing Standards and program-specific audit guidelines in OMB Circular A-133, section 235
' The independent auditor's report is the opinion (or disclaimer) of whether the Schedule of Funds Sources and
Project Costs award is presented fairly in all material respects in conformity with generally accepted accounting
principles or another comprehensive basis of accounting.




                                                           7
We reviewed each report for compliance with the applicable reporting requirements (but not
the quality of the underlying audits) and analyzed the results. Our observations are summarized
in table 4.

                                        Table 4. 

            Analysis by Bureau for OIG-Reviewed Commercial Audit Reports, 

                                   January-June 20 Ila 


Bureau
                    I CFDA ,, RRe ~ortsd .:· Reports
                                             1
                                                    •
                                                     , Percentage
                                                            1

                                                                                Material          t"
                                                                                               Non-      I F"Total  . Q uestroned
          Program               1             wrth     of Reports               Findingsh   reso1u ron        d"         C      d
                                I   evrewe       Findings       with Findings                Findings'      rn rngs ;      osts
                                I

 NIST      ATP       11.612           8             4                  so          5            0             5      $582,924
 NIST       TIP      11.616           7             3                  43          2            I             3         89, 143
 NIST      MERS       11 .609         2             I                  so          2            4             6         15,803
NTIA       BTOP       I 1.557         2             I                  so          0            I              I              0

Source: OIG
• Each of these programs has recipients that could be subject to audit in accordance with OMB Circular A-133; if 

significant, results for those reviews appear in section I. 

b Material findings are those with questioned costs greater than or equal to $ I 0,000 and/or significant nonfinancial 

findings. 

c Nonresolution findings are those with questioned costs less than $10,000 or administrative findings. 


d Questioned costs amounts are for federal share and are subject to change through the audit resolution/appeal 

process. 


The most frequent finding types across the TIP and ATP programs were noncompliance with
award requirements for allowable costs and cost principles, matching, level of effort, and
reporting. The MERS program had one report with a matching issue, while the BTOP program
had one report with allowable cost and cost principle issues.

Our nonfederal audit team, which will provide the bureaus a detailed summary of the findings, is
ready to discuss these results in more detail as the Department proceeds with the resolution of
findings. If you have any questions, please contact me at (202) 482-4661 or Susan Roy
at (404) 730-2063.

cc: 	    Lisa Casias, Director for Financial Management and Deputy Chief Financial Officer
         Barry E. Berkowitz, Director, Office of Acquisition Management
         Gordon Alston, Deputy Director for Financial Management
         Julie Tao, Director, Office of Internal Controls, Office of Financial Management
         Gary Johnson, Office of Acquisition Management, Grants Management Division
         Hari Sastry, Deputy Assistant Secretary for Resource Management
         Mark Daley, D eputy Director, Office of Acquisition Management
         Joanne Buenzli Crane, Acting Chief Financial Officer, NOAA
         Andrew Baldus, Chief Financial Officer, EDA
         Len Bechtel, Director and Chief Financial Officer, NTIA
         George E. Jenkins, Chief Financial Officer, NIST
         Edith McCloud, Associate Director for Management and Chief Financial Officer, MBDA




                                                                   8
